      U. S. General Services Administration

OFFICE OF INSPECTOR GENERAL
              Office of Audits
 





   AUDIT OF GSA’S ACQUISITION OF SERVICES
 

    FOR THE INTERNATIONAL TRADE CENTER
 

      AT THE RONALD REAGAN BUILDING
 

    REPORT NUMBER A080106/P/W/R10004
 


                  May 3, 2010
 

                 u.s.   GENERAL SERVICES ADMINISTRATION
                  Office of Inspector General




Date:            May 3,2010

Reply to         Regional Inspector General for Auditing
Attn of:         National Capital Region Field Audit Office

Subject:         Audit of GSA's Acquisition of Service for the International
                 Trade Center at the Ronald Reagan Building
                 Report Number A080106/P/W/R10004

To:              Sharon Banks
                 Acting Regional Administrator (WA)
                 National Capital Region

                 Bart Bush
                 Public Buildings Service Regional Commissioner (WP)
                 National Capital Region

This report presents the results of our audit of GSA's Acquisition of Services for the International Trade
Center at the Ronald Reagan Building. The audit objective was to assess whether the extensive changes
to the contract should have been made, with particular attention given to the potential procurement
irregularities. Our audit identified numerous procurement irregularities and lack of oversight. The initial
decisions to expand the scope of the contract created a flawed platform with an intense administrative
workload. Although this contract spanned more than a decade and involved multiple contracting
officers and Ronald Reagan Building and International Trade Center directors, the situation did not
improve. We found that GSA executed contract actions contrary to FAR regulations, ignored statutes,
and abandoned policies and sound business practices. Subsequently, GSA awarded another contract for
up to 10 years to the incumbent without the benefit of competition and the assurance that the contract
costs are fair and reasonable.

We recommend that the Acting Regional Administrator correct the type of contracting oversight
deficiencies identified in this report for current and future contract actions; address the inherent conflict
of interest that results from TCMA as both trade center manager and owner/manager of the Aria
restaurant; evaluate and perform analyses of the contract to determine the best course of action to
ensure GSA is obtaining fair and reasonable pricing, before awarding additional extensions/option years;
and establish and support an independent line of authority for the contracting officer and ensure
transparency in the management of the contract.

If you have any questions regarding this report, please contact me on (202) 708-5340.


                lk.
  rbara E. Bouldin
Regional Inspector General for Auditing
National Capital Region Field Audit Office


                                7th & D Streets, SW, Washington, DC 20407
                                                            ~
                                Federal Recycling Program . . .,   Printed on Recycled Paper
                                                                                                          GSA/OIG/A080106/P/W/R10004






TABLE OF CONTENTS 
 

EXECUTIVE SUMMARY
 

  Purpose........................................................................................................................... 1
 

  Background..................................................................................................................... 1
 

  Results in Brief................................................................................................................ 2
 

  Recommendations.......................................................................................................... 3
 


INTRODUCTION
  Background..................................................................................................................... 5
 

       Base Contract .........................................................................................................................6
 

       Contract Modifications...........................................................................................................8
 

       Successor Contract Action ......................................................................................................9
 

  Objectives, Scope and Methodology............................................................................ 10
 


RESULTS OF AUDIT
  Results in Brief.............................................................................................................. 13
 

  1. Commercial Facility Management Services ............................................................ 14
 

       1.1. Commercial Facility Management Services Phase 1 – Cost Reimbursable..................15
 

       1.2. Commercial Facility Management Services Phase 2 – Fixed Price...............................16
 

  2. Parking Garage Management and Operations ....................................................... 17
 

       2.1.    Improper Contract Action ............................................................................................18
 

       2.2.    Price Structure .............................................................................................................19
 

       2.3.    Avoidable Interest and Penalties on D.C. Sales and Use Tax .......................................20
 

       2.4.    TCMA Mark-up on D.C. Sales and Use Tax Payment ...................................................21
 

  3. Marketing................................................................................................................ 21
 

       3.1.    Base Contract ..............................................................................................................21
 

       3.2.    Cost and Performance Risk..........................................................................................22
 

       3.3.    Labor............................................................................................................................22
 

       3.4.    Aria Restaurant ...........................................................................................................22
 

       3.5.    Mobile Performance Stage ..........................................................................................23
 

  4. Construction Management ..................................................................................... 23
 

       4.1. Inappropriate Award Actions ......................................................................................24
 

       4.2. Improper Accounting...................................................................................................25
 

  5. Additional Administrative Positions........................................................................ 25
 

  6. Additional Sales Positions ....................................................................................... 26
 

  7. Restaurant............................................................................................................... 28
 

       7.1. Conflict of Interest .......................................................................................................29
 

       7.2. Preferential Terms .......................................................................................................29
 

  8. TCMA Occupancy of International Trade Center Space.......................................... 30
 

                                                                                                     GSA/OIG/A080106/P/W/R10004




9. Contract Oversight .................................................................................................. 32
 

    9.1. Audits...........................................................................................................................32
 

    9.2. Program Performance Measurement..........................................................................33
 

    9.3. Funding........................................................................................................................33
 

Observations................................................................................................................. 33
 

Conclusion .................................................................................................................... 34
 

Recommendations........................................................................................................ 35
 

Management Controls.................................................................................................. 35
 

Management Comments.............................................................................................. 36
 

Auditor Response ......................................................................................................... 36
 

APPENDIX A – Management Comments ...................................................................... 38
 

APPENDIX B – Auditor Response.................................................................................. 62
 

APPENDIX C – Alert Report........................................................................................... 69
 

APPENDIX D – Construction Related Contract Modifications ...................................... 76
 

APPENDIX E – Report Distribution................................................................................ 79
 

                                                                            GSA/OIG/A080106/P/W/R10004






EXECUTIVE SUMMARY 
 

PURPOSE
This audit was initiated in response to a request from the former Regional
Administrator, concerned over the absence of adequate support to justify a proposed
modification to extend the trade center management contract by 26 months beyond its
final option year, at an estimated cost of $50 million dollars. The audit objective was to
assess whether the extensive changes to the contract should have been made, with
particular attention given to the potential procurement irregularities1. Specifically, we
reviewed conditions surrounding the expansion of the contract to include commercial
facility management services and operation of a parking garage, reliance on a cost
reimbursable contract structure, and the substantial risk of overpayment2 as well as
payment of questionable expenses.




BACKGROUND
The Federal Triangle Development Act, Public Law 100-113, dated August 21, 1987,
authorized the development of a Federal office complex and international cultural and
trade center on the Federal Triangle site at 14th Street and Pennsylvania Avenue, NW,
in Washington, D.C. The Act anticipated the development, maintenance and use to be a
joint effort of the General Services Administration (GSA), the Pennsylvania Avenue
Development Corporation (PADC), and the International Cultural and Trade Center
Commission (Commission) 3.




1
    Also see Appendix C for an alert report issued on this subject.

2
 The determination of an ‘overpayment’ is based on the modifications to the contract, not the payment
history. However, the modifications establish the right to payment conditioned upon performance unless
rescinded.

3
  The sections of the Federal Triangle Development Act Public Law 100-113 pertaining to the establishment
and operation of a commission were codified as 40 U.S.C. section 1106 – 1107. These sections are omitted
from the current version of the U.S. Code due to “limited interest”, but have not been repealed.




                                                                                                     | 1

                                                                          GSA/OIG/A080106/P/W/R10004






This vision of a joint effort, however, did not come to fruition and in 1995 GSA awarded
a contract to Trade Center Management Associates (TCMA) to provide all International
Trade Center management, operations and maintenance. TCMA was given the exclusive
right to develop, operate and manage the more than 500,000 occupiable square feet
dedicated to the International Trade Center in the Ronald Reagan Building in what is
considered a prestigious area for federal tenant agencies housed in Washington, D.C. In
December 2008, after an unsuccessful attempt to compete a new contract for a trade
center manager, GSA awarded the contract to the incumbent, TCMA.




RESULTS IN BRIEF
In evaluating the changes and administration of GSA contract GS-11P-02-ZGC-01604,
awarded to TCMA in March 1995, and in effect through March 2009, this audit
identified numerous and substantial procurement irregularities. In particular, we found:

          1.	 The addition of commercial facility management services greatly and
              improperly expanded TCMA’s contractual scope of work. The action was
              highly favorable to TCMA, and contrary to the Federal Acquisition
              Regulation (FAR), was non-competitive and cost-based.
          2.	 A GSA decision that modified the TCMA contract to incorporate parking
              garage management and operations resulted in an excessive and
              unwarranted compensation arrangement, inappropriate risk assumption,
              unnecessary incurrence of taxes, penalties and interest, and improper
              payment of overhead on those taxes, penalties and interest.
          3.	 The contractual compensation arrangement as it relates to marketing
              expenses inappropriately shifted all cost and performance risk to the
              government. GSA also inappropriately reimbursed TCMA for in-house
              labor costs and incurred the marketing expense for the Aria restaurant.
          4.	 GSA's use of the TCMA contract to acquire construction services resulted in
              a series of non-competitive award actions, some of which were outside the
              scope of the contract. Deliverables were unspecified. Terms and
              conditions required for federal construction contracts were absent and
              multiple levels of cost mark-ups and fees were permitted.
          5.	 There were 13 separate modifications since June 2002, valued in excess of
              $4.5 million, to compensate TCMA for costs for up to 10 additional
              administrative positions. Administrative positions are typically included in




4
 The contract was initially awarded as contract number GS-11P-94-AQC-0006. Contract Modification PA02
subsequently changed it to GS-11P-02-ZGC-0160 with no explanation.




                                                                                                 | 2

                                                                  GSA/OIG/A080106/P/W/R10004




             contractual general and administrative (G&A) rates and should not have
             been reimbursed separately.
         6.	 GSA improperly reimbursed TCMA in excess of $10.6 million for 12
             additional sales and sales management positions for work that was
             included in the fixed-price portion of the contract.
         7.	 TCMA’s operation of the Aria restaurant presents an inherent conflict of
             interest with TCMA’s primary role as trade center manager. The terms of
             agreement are extraordinary in their transfer of costs and risk to the
             Government.
         8.	 GSA’s lack of oversight and enforcement of contract terms permitted
             TCMA to occupy at no cost substantially more International Trade Center
             space than provided for under the contract. We estimate the value of
             unauthorized occupancy at about $651,398 per year.
         9.	 Related program management deficiencies were also evident in that GSA:
                 a.	 Did not require the contractor to report on matters relevant to
                     program success;
                 b.	 Failed to enforce existing audit rights; and,
                 c.	 Permitted International Trade Center operations to be heavily
                     subsidized by the Federal Buildings Fund.

There was a significant breakdown in management controls. The contracting officers’
ability to render independent, professional judgment was impaired by the
organizational chain of command. The contracting officers were also hampered by the
contract itself in that it was unwieldy and presented a particularly steep learning curve
for any newly assigned administrative contracting officer. According to the contracting
officers we interviewed, the vendor appears to enjoy unusual, direct access to
management. The Ronald Reagan Building and International Trade Center staff also
informed us that using the vendor to perform additional services aided in the smooth
operations of a highly visible facility which was important to them.




RECOMMENDATIONS
We recommend that the Acting Regional Administrator:

1) Correct the type of contracting and oversight deficiencies identified in this report for
   current and future contract actions, including:

        a) Non-compliance with all applicable Government contract laws and
           regulations;

        b) Uncompensated use of space by TCMA;

        c) Lack of meaningful performance measures for the contractor;


                                                                                        | 3
 

                                                               GSA/OIG/A080106/P/W/R10004






       d) Improper accounting treatment for assets including allocation of expenses
          and capitalization; and

       e) Lack of effective acquisition planning for any contract modifications and
          awards.

2) Address the inherent conflict of interest that results from TCMA as both trade
   center manager and owner/manager of the Aria restaurant.

3) Evaluate and perform analyses of the contract to determine the best course of
   action to ensure GSA is obtaining fair and reasonable pricing, as envisioned at the
   time of the award of the second contract, before awarding additional
   extensions/option years. Included in this evaluation would be a review of the
   International Trade Center mission as it affects the stewardship of the asset.

4) Establish and support an independent line of authority for the contracting officer
   and ensure transparency in the management of the contract.




                                                                                   | 4
 

                                                                            GSA/OIG/A080106/P/W/R10004






INTRODUCTION 
 

BACKGROUND
The Federal Triangle Development Act, Public Law 100-113, dated August 21, 1987,
authorized the development of a Federal office complex and international cultural
and trade center on the Federal Triangle site at 14th Street and Pennsylvania
Avenue, NW, in Washington, D.C.           The Act anticipated the development,
maintenance and use to be a joint effort of the General Services Administration
(GSA), the Pennsylvania Avenue Development Corporation (PADC), and the
International Cultural and Trade Center Commission (Commission) 5.

Effective April 1, 1996, Congress transferred all responsibilities formerly held by
PADC to GSA6, and the independent Commission was to oversee what was initially
conceived as an international cultural and trade center. The legislation granted the
Commission the authority to establish, operate and maintain an international
cultural and trade center from space leased from GSA not to exceed 500,000
occupiable square feet in the building, which at that point was yet to be constructed.
The Commission was in turn authorized to sublease to foreign missions and
international cultural and trade organizations, including domestic organizations and
State and local governments. The space was to be made available for the
establishment of trade centers and exhibitions, offices, commercial establishments, a
foreign trade reference facility, conference and event facilities and audio-visual
facilities for translating foreign languages. The Commission was allowed to permit
cultural events and other activities to be held in a portion of such space. The
Commission was short lived and has apparently not played a role in what has evolved
from the International Cultural and Trade Center to the International Trade Center at
the Ronald Reagan Building7.

The arrangement initially envisioned has been superseded by a single contract
providing all International Trade Center operations and maintenance. GSA made a
competitive award to Trade Center Management Associates (TCMA). TCMA has
been given the exclusive right to develop, operate and manage the more than



5
    See Note 3.

6
  The PADC was terminated in accordance with Public Law 104-134 and transferred its rights, title and
interest in all property to the GSA on April 1, 1996. Also see 40 U.S.C. Chapter 67.

7
 GSA’s written response to a question that resulted from the Trade Center Manager pre-proposal
conference indicated that the Commission was not currently funded and is inactive.




                                                                                                 | 5

                                                                   GSA/OIG/A080106/P/W/R10004






500,000 occupiable square feet dedicated to the International Trade Center in what
is considered a prestigious area for federal tenant agencies housed in Washington
D.C. The complex, with a value estimated by GSA at $1.5 billion, is within two blocks
of the White House, is within walking distance of the U.S. Capitol Building and has
frontage on two arterial roadways with nearby access to the interstate highway
system. It has a 1,950 space parking garage under the complex and a Great Plaza
with outside seating and landscaping that serves as a gateway to the National Mall.
National monuments, historic landmarks, hotels, theaters, restaurants,
entertainment centers and sports arenas are also in close proximity to the site.

The International Trade Center has been acknowledged by a variety of associations
and the recipient of several awards over the last 10 years, including Office Building of
the Year in 2001 (BOMA) and the INNER CIRCLE award winner for conference centers
in 2008.

BASE CONTRACT

On March 7, 1995, GSA awarded TCMA a firm, fixed-price contract8 comprised of a
base year plus nine one-year options. An additional two years were added to
compensate for construction delays, pushing the expiration date to March 7, 2007.
Not ready with a successor contract, GSA extended TCMA’s contract two additional
years. It expired on March 7, 2009.

The purpose of the trade center manager contract was to develop, manage and
operate the International Trade Center at the Ronald Reagan Building. The contract
cites the government’s planning goals for the creation of the International Trade
Center, which were to:

     I.     Facilitate and support a federal trade program to enhance the exchange of
            American goods and services in the international marketplace;
     II.    Enhance the vitality of Pennsylvania Avenue and environs;
    III.    Create a pedestrian link between the National Mall and the central business
            district;
    IV.     Create a facility that provides visual testimony to the dignity, enterprise,
            vigor and stability of the American Government; and,
     V.     Maximize the financial return on the Government’s investment to support
            the center’s activities.




8
    See Note 4.




                                                                                     | 6

                                                                              GSA/OIG/A080106/P/W/R10004





The contract was divided into two phases:

Phase I – Program Development – TCMA was tasked to perform market analysis and
program development; and produce a marketing plan, leasing plan, and operating
plan in support of the stated planning goals, subject to GSA approval. The fixed-price
award was valued at $590,029.

Phase II – Program Implementation – Following the approval of the final program
under Phase I, TCMA was tasked with providing the services necessary to implement
the program. Compensation was comprised of:

              •	 a fixed-price payment of $1,753,1519 per year, plus annual price
                 escalation in accordance with a prescribed wage price index;
              •	 commissions for office, retail and food service lease awards;
              •	 a fee for event room-rentals; and
              •	 reimbursement for certain anticipated expenses, such as covering
                 added security for events, event production costs, marketing,
                 advertising, publications, and costs of a similar nature.

The vendor was also permitted to provide catering services, but a specific revenue
sharing arrangement was not specified under the base contract.

The Phase II base contract services tasked TCMA to:

              1.	 Market space;
              2.	 Secure tenants;
              3.	 Develop lease terms and conditions;
              4.	 Coordinate tenant space build-out;
              5.	 Administer leases;
              6.	 Reconcile utilities cost allocations;
              7.	 Coordinate security requirements;
              8.	 Provide all staffing needs relative to accounting and administrative
                  support;
              9.	 Provide an annual audit at contractor’s expense;
              10. Provide concierge services;
              11. Provide International Trade Center budgeting and financial
                  reporting;




9
  As noted in the questions and answers for the Best and Final Offer, the price of the Phase II options
fluctuates in years 1-3 ($1,753,151, $1,668,744 and $1,749,006 respectively) due to some variations in
TCMA’s annual budget as a result of a phased hiring program, initial set-up costs and the provisions of
required services during lease-up. Option year 3 pricing was in effect for the balance of the contract.




                                                                                                   | 7

                                                                               GSA/OIG/A080106/P/W/R10004






              12. Promote the venue;
              13. Coordinate required commercial facility management services; and
              14. Manage events, conferences and exhibits to include soliciting,
                  scheduling, collecting fees, catering, production, and cleaning. (We
                  note that the base contract implies that event management will
                  generate fees but does not describe a revenue sharing formula.)

The base contract specifically excluded two key areas: parking and commercial
facility management. Per the Request for Proposal (RFP), parking was to be
managed by GSA under a separate contract, and the International Trade Center was
allocated 350 spaces to support its operations. Commercial facility management
services were also to be procured under a separate contract. GSA envisioned a
single-source contract providing commercial facility management services to the
entire complex to include event support.

CONTRACT MODIFICATIONS

GSA exercised its first option for “Phase II – Program Implementation” services on
March 8, 1996. As outlined above, the base contract contemplated an annual fixed-
price payment (plus escalation), commissions and fees, catering, and certain
reimbursable expenses. Contract modifications were initiated to fund these actions.
In addition to these anticipated items, the contract was modified to include a
comprehensive range of services outside the original scope of the contract. In the
earliest and ultimately most expensive of these changes, TCMA was awarded
operation of the parking garage and certain commercial facility management
responsibilities.10 Construction projects were also awarded through this contract
vehicle, as were additional administrative and sales positions, and restaurant startup
costs and management. Table 1 lists contract modifications by value through
contract modification C197, effective May 9, 2008.




10
  GSA awarded a separate commercial facility management contract that covered building operation,
maintenance, operation and repair of mechanical, electrical, utility systems and structural maintenance
and repairs for the entire Ronald Reagan Building and International Trade Center complex. The facilities
management tasks awarded to TCMA cover services such as cleaning (including windows), custodial
services, landscaping, and pest control for ITC space.




                                                                                                    | 8

                                                                              GSA/OIG/A080106/P/W/R10004






                   Modification Category                  Funded Amount
                   CFM Services*                                $71,865,325
                   Parking Garage                               $24,739,979
                   Exercise Option                              $22,362,991
                   Marketing/Promotion                          $12,273,975
                   Additional Sales Staff                       $10,615,003
                   Construction                                 $10,104,471
                   DC Tax                                        $9,515,083
                   Leasing Commissions                           $7,885,000
                   Extension Mod                                 $5,020,512
                   Additional Admin Staff                        $4,548,379
                   Restaurant                                    $4,311,554
                   Reimbursable - Misc                           $2,542,810
                   Reimbursable – CFM Services*                  $2,086,701
                   Signage                                       $1,002,960
                   Event Fees                                      $953,000
                   Linens                                          $907,126
                   Audit Services                                  $785,900
                   Studies/Consultants                             $724,907
                   Wi-Fi                                           $550,599
                   Legal                                           $520,000
                   Program Development                             $493,485
                   Fitness Center                                  $374,413
                   Phase I Increase                                 $84,600
                   Security Check                                   $59,000
                   Grand Total                                 $194,327,775

                  Table 1 - Value of Contract Modifications through May 9, 2008

                  *Commercial Facility Management Services




SUCCESSOR CONTRACT ACTION

In May 2008, GSA conducted a competitive solicitation for offers, receiving only one
response, that of the incumbent. As a result, GSA’s management established a task
force, assembled with GSA’s legal counsel and procurement experts, to determine
whether its new solicitation for a trade center manager for the International Trade
Center in effect, prevented competition. The task force identified that the “limited
historical data provided by GSA to the offerors, together with the substantial risks
placed on offerors by the solicitation”, prevented full and open competition.
However, the November 25, 2008 memorandum to the Senior Procurement Advisor
from the former Acting Regional Administrator stated that the region would proceed
with contract award and the Senior Procurement Advisor concurred with that
decision. On December 2, 2008, the new contract was awarded to the incumbent,



                                                                                             | 9

                                                                                   GSA/OIG/A080106/P/W/R10004






TCMA. The contract consists of a base period, nine optional one-year periods and a
close out period.




OBJECTIVES, SCOPE AND METHODOLOGY
This audit was initiated in response to a request, in December 2007, from the former
Regional Administrator, concerned over the absence of adequate support to justify a
proposed modification to extend the current trade center management contract by
26 months beyond its final option year, at an estimated cost of $50 million dollars.
The audit objective was to assess whether the extensive changes to the contract
should have been made11, with particular attention given to potential procurement
irregularities. Specifically, we reviewed conditions surrounding the expansion of the
contract to include operation of a parking garage and commercial facility
management, reliance on a cost reimbursable contract structure, and the potential
for overpayment and payment of questionable expenses. An alert report was issued
to the former Regional Administrator on May 29, 2008.

Fieldwork was performed from May 2008 to January 2009 and included contract,
financial, and program activity from March 1995, contract award, through the end of
fieldwork. The audit methodology included the following:


                 LAWS, REGULATIONS, GUIDANCE AND BUILDING HISTORY
                 •	 Reviewed authorizing legislation and Committee Reports;
                 •	 Reviewed the Public Buildings Service (PBS) accounting and
                    construction guidance, and agency policies and procedures;
                 •	 Reviewed all Asset Business Plans for the building and parking
                    garage;
                 •	 Reviewed and documented a news article related to the Ronald
                    Reagan Building and International Trade Center;
                 •	 Reviewed the information on the Ronald Reagan Building and
                    International Trade Center website.


                 CONTRACT AND RELATED RECORDS

                 •	 Analyzed the Trade Center Manager contract terms and conditions;




11
     The operations of the facility were not evaluated as part of our objective.




                                                                                                 | 10

                                                    GSA/OIG/A080106/P/W/R10004






•	 Reviewed and analyzed documents provided by the former Regional
   Administrator including contract history, modification summary, and
   pre-award and solicitation files to obtain a more complete
   understanding;
•	 Analyzed the award documents (including amendments), the
   Technical Proposal, and the Best and Final Offer;
•	 Reviewed the contracting officers’ correspondence files, and the 321
   contract modifications spanning a 13-year period to ascertain the
   contract’s history, major funding activities, and to determine the
   subject areas for review;
•	 Obtained a copy of the new awarded contract and related
   correspondence. Subsequent to fieldwork, we performed a limited
   review of aspects of the follow-on contract’s Request for Proposal.


FINANCIAL DATA
•	 Analyzed and created a database for the TCMA submitted invoices
   from January 2005 through May 2008 and analyzed the September
   2007 detailed invoice binder (Note: The invoices from January 2005
   through May 2008 were the only available electronic invoices.);
•	 Reviewed the budgets related to marketing, parking and commercial
   facility management ;
•	 Reviewed revenue generating activities under the contract and their
   respective expenses;
•	 Reviewed GSA’s modification tracker and expense tracker;
•	 Obtained and reviewed the Ronald Reagan Building and
   International Trade Center profit/loss statement, and analyzed
   Pegasys reports for the TCMA contract.


CONFERENCES AND MEETINGS
•	 Held entrance conference and periodic briefings with the former
   Regional Administrator, and his senior executive staff including the
   Deputy Assistant Regional Administrator (ARA) for PBS Business
   Services and Support, Deputy ARA PBS Operations, Regional Counsel,
   and Triangle Services Center Director;
•	 Held discussions with GSA regional officials responsible for the day-
   to-day operations of the Ronald Reagan Building and International
   Trade Center, including Ronald Reagan Building and International
   Trade Center Directors, International Trade Center Director,
   contracting officers, International Trade Center program analyst, and
   International Trade Center budget analyst for the TCMA contract,


                                                                    | 11

                                                                 GSA/OIG/A080106/P/W/R10004





                and Ronald Reagan Building and International Trade Center GSA 

                building manager and staff; 

            •	 Held discussions with regional and central office Chief Financial
               Officer officials, regional PBS officials, GSA competition advocate
               utilized for the new procurement, GSA’s space management
               personnel, GSA Regional Appraiser, Asset Manager, GSA Office of
               Inspector General legal personnel, and the 3H Technology
               contractor.


            PROGRAMMATIC REVIEW

            •	 Reviewed audits performed by an independent auditing firm of the
               parking garage, and conference center events and the related
               management letters;

            •	 Toured the International Trade Center facilities including the North
               Tower, conference and event space, food preparation areas, parking
               garage and loading dock areas, restaurant, and exterior perimeter of
               the building to verify tenant occupancy, parking operations, TCMA
               occupancy, and observe the general control environment;

            •	 Analyzed office and retail tenant license agreement files;

            •	 Analyzed licenses, amendments, and corresponding meeting notes
               for the three restaurant tenants;

            •	 Reviewed and analyzed TCMA submitted Room Commission sheets
               and 21-day event reports.

The audit was conducted in accordance with generally accepted government
auditing standards (GAGAS) for performance audits. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                                                                  | 12


                                                                    GSA/OIG/A080106/P/W/R10004






RESULTS OF AUDIT
 

RESULTS IN BRIEF
In evaluating the changes and administration of the General Services Administration
(GSA) contract GS-11P-02-ZGC-0160 12 , awarded to Trade Center Management
Associates (TCMA) in March 1995, and in effect through March 2009, this audit
identified numerous and substantial procurement irregularities. In particular, we
found:

                   1.	 The addition of commercial facility management services greatly
                       and improperly expanded TCMA’s contractual scope of work. The
                       action was highly favorable to TCMA, and contrary to the Federal
                       Acquisition Regulation (FAR), was non-competitive and cost-based.
                   2.	 A GSA decision that modified the TCMA contract to incorporate
                       parking garage management and operations resulted in an
                       excessive and unwarranted compensation arrangement,
                       inappropriate risk assumption, unnecessary incurrence of taxes,
                       penalties and interest, and improper payment of overhead on
                       those taxes, penalties and interest.
                   3.	 The contractual compensation arrangement as it relates to
                       marketing expenses inappropriately shifted all cost and
                       performance risk to the government. GSA also inappropriately
                       reimbursed TCMA for in-house labor costs and incurred the
                       marketing expense for the Aria restaurant.
                   4.	 GSA's use of the TCMA contract to acquire construction services
                       resulted in a series of non-competitive award actions, some of
                       which were outside the scope of the contract. Deliverables were
                       unspecified.    Terms and conditions required for federal
                       construction contracts were absent and multiple levels of cost
                       mark-ups and fees were permitted.
                   5.	 There were 13 separate modifications since June 2002, valued in
                       excess of $4.5 million, to compensate TCMA for costs for up to 10
                       additional administrative positions. Administrative positions are
                       typically included in the contractual general and administrative
                       (G&A) rates and should not have been reimbursed separately.
                   6.	 GSA improperly reimbursed TCMA in excess of $10.6 million for 12
                       additional sales and sales management positions for work that was
                       included in the fixed-price portion of the contract.



12
     See Note 4.




                                                                                    | 13

                                                                  GSA/OIG/A080106/P/W/R10004






             7.	 TCMA’s operation of the Aria restaurant presents an inherent
                 conflict of interest with TCMA’s primary role as trade center
                 manager. The terms of agreement are extraordinary in their
                 transfer of costs and risk to the Government.
             8.	 GSA’s lack of oversight and enforcement of contract terms
                 permitted TCMA to occupy at no cost substantially more
                 International Trade Center (ITC) space than provided for under the
                 contract. We estimate the value of unauthorized occupancy at
                 about $651,398 per year.
             9.	 Related program management deficiencies were also evident in
                 that GSA:
                     a.	 Did not require the contractor to report on matters
                         relevant to program success;
                     b.	 Failed to enforce existing audit rights; and,
                     c.	 Permitted ITC operations to be heavily subsidized by the
                         Federal Buildings Fund.

There was a significant breakdown in management controls. The contracting
officers’ ability to render independent, professional judgment was impaired by the
organizational chain of command. The contracting officers were also hampered by
the contract itself in that it was unwieldy and presented a particularly steep learning
curve for any newly assigned administrative contracting officer. According to the
contracting officers we interviewed, the vendor appears to enjoy unusual, direct
access to management. The Ronald Reagan Building and International Trade Center
staff also informed us that using the vendor to perform additional services aided in
the smooth operations of a highly visible facility which was important to them.




1. COMMERCIAL FACILITY MANAGEMENT SERVICES
Although explicitly excluded from the original contract solicitation and award,
commercial facility management services were nevertheless added to TCMA’s
contract. The addition of these services greatly and improperly expanded TCMA’s
contractual scope of work. The action was highly favorable to TCMA and, in
contravention of the Competition in Contracting Act, 41 U.S.C. § 253, as well as FAR
requirements, was non-competitive and cost based. As a result, GSA had no means
to determine whether the proposal represented a realistic, market-based solution,
and the vendor community was denied a competitive opportunity. Further, aspects
of the compensation arrangement resulted in duplication of G&A type costs.

A no-bid, cost-plus-percentage-of-cost compensation arrangement was used from
July 1997 through October 1999. From that point forward, the compensation



                                                                                  | 14

                                                                      GSA/OIG/A080106/P/W/R10004




arrangement changed to what the official contract file characterizes as fixed-price.
In fact, it was a highly unusual cost-derived compensation arrangement plus G&A,
plus a management fee, plus escalation. The entire amount was reset at three-year
intervals. The total value funded through May 2008 was $74 million.

1.1. COMMERCIAL FACILITY MANAGEMENT SERVICES PHASE 1 – COST
REIMBURSABLE

Within its base contract Request for Proposal (RFP), including specific questions and
answers documented in amendments to the RFP, GSA advised bidders that
commercial facility management services would be procured independently, and
competitively, under a separate, future contract action. Contrary to its explicit
statement of exclusion and without a stated justification, GSA modified the TCMA
contract soon after award to allow for janitorial and facility management services.
This initial modification stated that the action was “In accordance with discussions
and representations by the Government…” While a former director of the facility
stated that discussions did occur, she did not participate in them and we found no
evidence of these discussions or specific Government representations, and no
justifications as to how or why the decision was reached. This initial modification
added, un-priced and only generically scoped, both 1) janitorial and facility
management services and 2) operation and management of the parking garage. The
specific language as it pertains to commercial facility management services was
limited to the following:

        Provide janitorial and facility management services for p[r]ogram areas related to
        the International Trade Center. (These areas generally included office space through
             th
        the 9 floor, ground, concourse, mezzanine and below grade ancillary spaces and the
        parking garage.) which [sic] will include the following services:

        1.    Janitorial/cleaning
        2.    Exterior of building cleaning (doors, all exterior glass and metal trim)
        3.    Snow removal
        4.    Trash collection and removal, recycling
        5.    All exterior building window washing
        6.    Landscape maintenance
        7.    Pest and rodent control
        8.    Reimbursable building alterations
        9.    Security support services
        10.   Coordination with other building maintenance and construction contractors …

        YOU ARE REQUESTED TO SUBMIT A PROPOSAL FOR THIS ADDED WORK. NO COSTS
        SHALL BE INCURRED NOR THE GOVERNMENT LIABLE FOR ANY COSTS RELATING TO
        THIS MODIFICATION UNTIL THE FINAL SCOPE OF WORK, PERFORMANCE PERIOD AND
        PRICING ARE RECONCILED AND DEFINITIZING MODIFICATION ISSUED ACCORDINGLY.
        (Contract modification PC07, signed July 18, 1996)



                                                                                       | 15

                                                                                GSA/OIG/A080106/P/W/R10004






On June 30, 1997, TCMA’s contract was modified to add the final scope of work and
to fund the initial task. Compensation for these services, for the start-up period (July
1, 1997 to September 30, 1998, extended to October 31, 1999), was a cost-plus-fee
type arrangement, where TCMA received cost reimbursement, plus a (PROPRIETARY
INFORMATION – REDACTED) G&A fee, plus a management fee based on square
footage. The management fee, per the modification estimate, added (PROPRIETARY
INFORMATION – REDACTED) per year to the contract. From data presented in the
latest invoices (September and October 1999) for this initial commercial facility
management services compensation arrangement, the fee represents an implied
profit as high as (PROPRIETARY INFORMATION – REDACTED) over costs, with most
cost risk absorbed by GSA. We note that FAR 16.301-3(b)13 prohibits the use of cost
reimbursable contracts to acquire commercial services, a point also included in FAR
12.20714. Further, the cost-plus-percentage-of-cost pricing structure, which has been
applied in this instance in the form of a predetermined (PROPRIETARY INFORMATION
– REDACTED) G&A fee, is prohibited without exception by 41 U.S.C. § 254 (b), as well
as FAR 16.102(c).

1.2.  COMMERCIAL FACILITY MANAGEMENT SERVICES PHASE 2 – FIXED
PRICE

At the end of this “start-up” period, the contract was modified to what the contract
file characterizes as a fixed-price arrangement, supplemented by reimbursable and
variable components, but intended to be primarily fixed-price. The following
problems were present in this second phase. First, there was no full and open
competitive process. 15 TCMA submitted a cost budget, including substantial
subcontracting, which served as the basis of award. Second, the fixed-price contract
arrangement was in fact not fully fixed. It contained an annual price escalation
provision, but in addition, was actually reset to cost after three years. In effect,



13
  FAR 16.301-3(b): “The use of cost-reimbursement contracts is prohibited for the acquisition of
commercial items …”

14
  FAR 12.207: “…(a) Except as provided in paragraph (b)… agencies shall use firm-fixed-price contracts
or fixed-price contracts with economic price adjustment for the acquisition of commercial items…. (e)
Use of any contract type other than those authorized by this subpart to acquire commercial items is
prohibited.” The exception cited, paragraph (b), is for time-and-materials or labor-hour contracts.

15
  FAR 6.101: “(a) 10 U.S.C. 2304 and 41 U.S.C. 253 require, with certain limited exceptions (see
Subpart 6.2 and 6.3), that contracting officers shall promote and provide for full and open competition in
soliciting offers and awarding Government contracts. (b) Contracting officers shall provide for full and
open competition through use of the competitive procedure(s) contained in this subpart that are best
suited to the circumstances of the contract action and consistent with the need to fulfill the
Government’s requirements efficiently (10 U.S.C. 2304 and 41 U.S.C. 253).”




                                                                                                    | 16

                                                                                 GSA/OIG/A080106/P/W/R10004






TCMA incurred no significant cost or performance risk; the arrangement was devoid
of the hallmarks of a fixed-price contract. Third, the pricing arrangement left the
contract vulnerable to cost duplication and violated aspects of FAR. To its budgeted
direct cost, TCMA added (PROPRIETARY INFORMATION – REDACTED) G&A plus a
(PROPRIETARY INFORMATION – REDACTED) management fee16 as a percentage of
total cost. For example, based on its 2003 price proposal, the price was set at not to
exceed (PROPRIETARY INFORMATION – REDACTED). The proposal provided line
items for the direct costs such as uniforms, payroll and payroll taxes, telephone, and
office supplies. To this TCMA added a G&A fee17 (PROPRIETARY INFORMATION –
REDACTED); and management fee (PROPRIETARY INFORMATION – REDACTED). The
budgeted direct costs include many indirect type expenses that would normally be
associated with G&A. Permitting these costs as both direct and indirect elements is
contrary to FAR cost rules18 and results in duplication. Additionally, this type of
arrangement has more in common with cost-reimbursement than fixed-price
contracting and a cost-based compensation arrangement for this type of service is
not permitted under FAR.




2. PARKING GARAGE MANAGEMENT AND OPERATIONS
The GSA decision to modify the TCMA contract to incorporate parking garage
management and operations resulted in an excessive compensation arrangement,
inappropriate risk assumption, unnecessary incurrence of taxes, penalties and
interest, and improper payment of overhead on those taxes, penalties and interest.
From January 1999 through May 2008, TCMA earned fees of approximately
(PROPRIETARY INFORMATION – REDACTED)19 on fully reimbursed parking garage




16
  Fee was derived from a rate per square foot methodology that equated to (PROPREITARY
INFORMATION – REDACTED) of the total proposed cost.

17
  Under the contract, the vendor is provided space in the facility at no cost. Office space would also
generally be part of G&A costs.

18
  FAR 31.203(b): “After direct costs have been determined and charged directly to the contract or other
work, indirect costs are those remaining to be allocated to intermediate or two or more final cost
objectives. No final cost objective shall have allocated to it as an indirect cost any cost, if other costs
incurred for the same purpose, in like circumstances, have been included as a direct cost of that or any
other final cost objective.”

19
  An estimate based on available audited TCMA revenue schedules from 1999 through 2006, and
invoiced amounts for the remainder through May 2008.




                                                                                                     | 17

                                                                               GSA/OIG/A080106/P/W/R10004






operating expenses of (PROPRIETARY INFORMATION – REDACTED) 20 , a
(PROPRIETARY INFORMATION – REDACTED) rate of return with no cost or
performance risk borne by TCMA. In addition, TCMA received an unallowable
payment of (PROPRIETARY INFORMATION – REDACTED), equivalent to
(PROPRIETARY INFORMATION – REDACTED) G&A 21 improperly paid on taxes,
penalties and interest of $6.2 million. GSA, in turn, has had to assume the entire tax,
penalty, and interest liability without recourse. Contract modifications to fund the
tax and related liabilities exceeded $9 million, costs that would have been avoided in
their entirety had the facility been government operated. At a minimum, under a
more appropriate contract structure, the contractor would have borne responsibility
to identify and mitigate such risks, and it is arguable that TCMA, in its broader role as
ITC manager, should have done so. In addition, there were no stated or measured
performance goals.

2.1.     IMPROPER CONTRACT ACTION

The contract was modified concurrently to include both the commercial facility
management services (as discussed in the previous section of this report) and the
parking garage operation and management. In both instances, it was GSA’s original
intention to procure the services under a contract separate from the TCMA contract.
Pre-proposal conference minutes and Amendment 2 of the Solicitation noted that
parking services would be contracted for separately by GSA. As with the commercial
facility management services, we found no documentation of GSA’s rationale for
changing position to include parking as part of the contract. In discussions with a
former director of the facility, we were told that her understanding was that
including these services allowed for better coordination of operations within the
facility. The contract was modified and the specific language as it pertains to parking
was limited to the following:

         Provide management and operation services for the entire parking garage for the
         Ronald Reagan Building and International Trade Center including parking designated
         for FOB tenants and ITC.



20
  This is an estimate based on funding documents. We also performed this analysis using electronic
invoices and it yielded approximately the same rate of return.

21
  A memo to the modification file says the amount was offset by (PROPRIETARY INFORMATION –
REDACTED) previously reimbursed for legal expenses incurred. The purported legal fees incurred would
have been elements of the G&A pool. FAR 31.202 precludes direct cost recovery of cost elements
otherwise treated as indirect costs. Legal fees are either excluded from the G&A pool in their entirety,
and billable to GSA only as direct cost elements of a contract specified final cost objective, or
recoverable exclusively through application of the G&A rate allocable to an otherwise allowable final
cost objective.




                                                                                                   | 18

                                                                                 GSA/OIG/A080106/P/W/R10004






            Services include but are not limited to: (A full scope of services will be developed and
            attached at a later date)

            1.	 Collect revenues from hourly, daily and monthly parkers
            2.	 Provide all labor and materials for parking
            3.	 Provide all labor to collect revenues and provide valet parking as needed
                designated [sic]
            4.	 Ensure parking areas are cleaned and ready for monthly FOB employees by 6AM,
                Monday through Friday.

            YOU ARE REQUESTED TO SUBMIT A PROPOSAL FOR THIS ADDED WORK. NO COSTS
            SHALL BE INCURRED NOR THE GOVERNMENT LIABLE FOR ANY COSTS RELATING TO
            THIS MODIFICATION UNTIL THE FINAL SCOPE OF WORK, PERFORMANCE PERIOD AND
            PRICING ARE RECONCILED AND DEFINITIZING MODIFICATION ISSUED ACCORDINGLY.
            (Contract modification PC07, signed July 18, 1996)

Approximately one year later the TCMA contract was modified to supplement the
contract action cited above by providing full terms, conditions, scope and pricing.
The file did not address the exception to FAR competition requirements22, the use of
a cost reimbursable contract structure to acquire commercial services 23 , FAR-
required profit analysis24, nor Service Contract Act provisions25.

2.2.        PRICE STRUCTURE

Under the agreed upon contract terms, parking garage operating expenses were fully
reimbursed to TCMA. Operating expenses included costs of personnel, materials,
subcontracts, liability insurance for property and persons, utilities, valet parking,
cleaning, supplies, uniforms, and laundry. Salaries included a general manager,




22
   FAR 6.301(a): “…Contracting without providing for full and open competition or full and open
competition after exclusion of sources is a violation of statute, unless permitted by one of the exceptions
in 6.302. (b) Each contract awarded without providing for full and open competition shall contain a
reference to the specific authority under which it was so awarded….”

23
     See Note 13.

24
  FAR 15.404-4(d): “…unless it is clearly inappropriate or not applicable, each factor outlined in…this
subsection shall be considered by agencies in developing their structured approaches and by contracting
officers in analyzing profit, whether or not using a structured approach.”

25
  FAR 22.1002-1: “Service contracts over $2,500 shall contain mandatory provisions regarding
minimum wages and fringe benefits, safe and sanitary working conditions, notification to employees of
the minimum allowable compensation, and equivalent Federal employee classifications and wage rates.
Under 41 U.S.C. 353(d), service contracts may not exceed 5 years.”




                                                                                                     | 19


                                                                   GSA/OIG/A080106/P/W/R10004






facility manager, valet manager, assistant managers, bookkeeper, and receptionist.
Through May 2008, estimated cumulative operating expense reimbursements were
(PROPRIETARY INFORMATION – REDACTED).

In addition to recovering its cost, TCMA was paid a fee based on generated gross
parking revenue. It earned (PROPRIETARY INFORMATION – REDACTED) on monthly
permit parking revenue, and (PROPRIETARY INFORMATION – REDACTED) on
transient parking fees for gross monthly transient parking revenue. A (PROPRIETARY
INFORMATION – REDACTED) incentive payment was also available on operating
expense savings, but the triggering condition was never met. Through May 2008, we
estimated that TCMA earned parking fees totaling (PROPRIETARY INFORMATION –
REDACTED).

The net result was a cost reimbursable contract structure that permitted profit
averaging (PROPRIETARY INFORMATION – REDACTED) of operating costs. To earn
this fee, TCMA assumed no cost risk. Any unanticipated expense or cost increase
was passed on to GSA. For example, the costs associated with the failure to
anticipate or mitigate a substantial tax liability were passed through to GSA.

2.3.    AVOIDABLE INTEREST AND PENALTIES ON D.C. SALES AND USE TAX

The District of Columbia imposes a 12% sales and use tax on commercial parking
revenues. The tax liability issue first surfaced as the result of an audit in 2002 by the
District of Columbia Office of Tax and Revenue. The audit found unpaid taxes of $2.9
million for the period January 1, 1998 through December 31, 2001. The taxes
remained unpaid until 2005, by which time the penalty plus interest had increased
the amount by $3.3 million to $6.2 million. That amount, plus an additional $1.8
million, per a settlement agreement between TCMA and the District, resolved the tax
liability through calendar year 2006. Since that time, taxes have been remitted as
required, and since May 2007, TCMA is collecting tax from the parking patrons, so
the cost burden to GSA has, finally, been alleviated. Monthly taxes average
approximately $55,000.

The District’s position was as follows. Because the ITC parking garage is vendor
operated, and that vendor was most accurately defined as an independent
contractor and not an agent or instrumentality of the Federal Government, all
parking revenue (except that which represents a direct intergovernmental transfer
from a tenant agency to GSA) is subject to the tax. If the Government itself were
operating the garage, the District acknowledges, it would be without authority to
collect the tax.

The failure to identify the liability is a responsibility shared by both GSA and TCMA.
GSA ultimately lost nearly $10 million. Proper acquisition planning, a suitable



                                                                                    | 20

                                                                 GSA/OIG/A080106/P/W/R10004






contract structure with appropriate risk sharing, accounting for results of operations
- all of these were absent on GSA’s part. A GSA operated facility, or one deemed
under GSA control, would have avoided the cost altogether. TCMA failed to identify
the potential liability in the first place, and changes to offset the cost to GSA took
years to implement. A vendor that recognized the liability and properly collected the
tax would also have avoided the cost to GSA, shifting it more appropriately to the
parking patrons. Within the scope of this audit, we did not explore the reasons why
the original taxes remained unpaid while interest charges accrued, or whether the
payment by GSA was proper and justified.

2.4.    TCMA MARK-UP ON D.C. SALES AND USE TAX PAYMENT

TCMA received an unallowable payment of (PROPRIETARY INFORMATION –
REDACTED), equivalent to (PROPRIETARY INFORMATION – REDACTED) G&A, applied
to the taxes, penalties and interest totaling $6.2 million and covering taxes through
calendar year 2001. No G&A mark-up was applied to subsequent tax payments.
There was no justification for a G&A mark-up based on an uncollected tax liability. It
was improper to compensate TCMA for overhead associated with taxes it failed to
assess or collect, and for interest charges paid by GSA. Further, the G&A allocation
base, never defined under the contract, could not have included taxes. These are
not expenses that TCMA would incur; these are instead liabilities that TCMA was
obligated to collect from parking patrons on behalf of the District Government.




3. MARKETING
The contractual compensation arrangement as it related to marketing expenses
inappropriately shifted all cost and performance risk to the government. GSA also
inappropriately reimbursed TCMA for in-house labor costs for an additional position,
and incurred the marketing expense for the Aria restaurant. In addition, an asset
acquired in support of outdoor events, with an original purchase price in excess of
$50,000, was incorrectly accounted for as a reimbursable marketing expense and
improperly sold.

3.1.    BASE CONTRACT

GSA tasked TCMA under Phase II of the base contract to “…aggressively promote the
ITC and all of its programs” and “prepare an annual plan outlining promotional
activities, promotional costs and calendar of events. The programmed events shall
be accompanied by budget estimates and presented to the Government for
approval.” The fee structure was such that all personnel costs related to



                                                                                 | 21
                                                                             GSA/OIG/A080106/P/W/R10004




programming and promotional activities would be covered by the base contract fee.
All other costs related to marketing would be paid on a reimbursable basis as
approved by GSA as the yearly budget.

3.2.      COST AND PERFORMANCE RISK

The contract established no measurable performance goal or cost constraint relative
to marketing and promotion. While funding through May 9, 2008 exceeded $12
million, the effectiveness of marketing relative to these expenditures was never
evaluated by GSA. We reviewed the composition of the outlays for the period from
January 2005 through May 2008. Summary data is provided in Table 2:



                 Marketing Categories                           Invoiced           %
                                                             Jan 05-May 08
       General                                                 $2,352,756         58%
       Woodrow Wilson Plaza (Outdoor Events)                   $1,077,011         26%
       Aria Restaurant                                          $316,914          8%
       Complementary Food Court Vouchers                        $170,604          4%
       Additional TCMA Payroll                                  $117,688          3%
       Other                                                    $35,298           1%
       Total                                                   $4,070,271        100%
    Table 2 - Marketing Expense Invoiced Jan 2005 through May 2008

We developed the table using electronic invoices submitted to GSA for payment.
Unusual outlays included reimbursed labor costs and tenant marketing, as discussed
below.

3.3.      LABOR

Although TCMA labor associated with marketing is unambiguously made part of the
fixed-price portion of the base contract, TCMA submitted and GSA approved for
payment costs associated with a TCMA employee identified as a marketing assistant.
There is no apparent reason for GSA to permit additional compensation of this type,
as GSA did not change the nature or extent of marketing already required as a
deliverable under the base contract.

3.4.      ARIA RESTAURANT

As developed more fully in the Restaurant section of this report, Aria Restaurant, an
ITC tenant, is owned and operated by the same individuals who comprise TCMA. The
Aria marketing expenses are borne by GSA and this arrangement was not included in
the terms of the licensing agreement. The effects of this arrangement were that an



                                                                                          | 22
                                                                 GSA/OIG/A080106/P/W/R10004




unauthorized rent concession accrued to Aria/TCMA, and the viability of the
restaurant as a going concern is artificially bolstered.

3.5.    MOBILE PERFORMANCE STAGE

In September 2001, TCMA was authorized to purchase a mobile performance stage
at a delivered price not to exceed $55,730. It did so, invoicing GSA as a marketing
expense line item. GSA reimbursed TCMA for the entire amount. While TCMA
prepared a “schedule” of government furnished equipment (GFE), and that schedule
was subject to audit, the schedule presented only aggregate data. As such, without
additional inquiry, it was not possible for GSA to determine whether the stage or any
specific GFE had been captured and controlled as inventory.

In March 2008, TCMA sold the stage for (PROPRIETARY INFORMATION – REDACTED)
and deposited the proceeds into a TCMA account used for the ITC activities. A
Ronald Reagan Building (RRB) and ITC Director stated that since TCMA revenue
collection and deposits were subject to audit, he was confident that the amount was
remitted, but this was not verifiable. GSA’s oversight was lacking. GSA did not
screen the property for possible reutilization (as required by FAR 45-602) and did not
comply with Federal Management Regulations Part 102-38 with regards to the sale
of personal property, disposition of proceeds, and reporting requirements.




4. CONSTRUCTION MANAGEMENT
GSA's use of the TCMA contract to acquire construction services, which totaled $10
million, resulted in a series of inappropriate award actions. Terms and conditions
required for federal construction contracts were absent. Deliverables were
unspecified. Multiple levels of cost mark-ups and fees were permitted. Further, if
independent government cost estimates or other forms of price analysis were
performed, these were not generally documented in the contract file. We found
only limited examples of multiple quotes secured by TCMA’s general construction
subcontractor, and no evidence of full and open competition. The process, to the
extent documented, does not establish a basis for the determination of price
reasonableness.      Further, these actions received inappropriate accounting
treatment. Construction projects well above the capitalization threshold were
expensed as incurred rather than capitalized and depreciated as required under
generally accepted accounting principles.




                                                                                 | 23


                                                                 GSA/OIG/A080106/P/W/R10004






4.1.    INAPPROPRIATE AWARD ACTIONS

The base contract did not clearly include actual construction services or construction
management for the ITC, and subsequent actions to include these services did not
comply with regulations and guidelines designed to protect the interests of the
government. TCMA was required to provide “coordination services” relative to
building construction projects:

        At times, particularly after the building is completed, the Government may
        elect to have the tenant construction documents and buildout provided by
        other contractors.      The TCM will provide coordination services for
        programming, blocking and stacking, design, construction documents,
        construction, construction management, inspection coordination of tenant's
        outside vendors such as, telephone, data, security, furniture, and move-in.
        Final acceptance of the space for occupancy will be by the Government.
        (TCMA Contract; Section (C)(6)(b), page I-C-18; emphasis added)

These coordination services were part of the fixed-price requirement; there was no
contract provision for additional compensation, and there were no additional
construction related services specified under the contract. TCMA’s staffing proposal
included a full-time position staffed by an individual with the requisite skills and
experience to satisfy this requirement. Inexplicably, GSA read this clause to exclude
construction coordination services in the case of retail space, an interpretation it
cited in Modification SA34 as justification to add compensation for coordination of
design and construction build-out for food court tenants. In contrast, GSA also
interpreted the above-cited clause to include construction management services,
architectural and engineering services, and actual construction services for event
space such as the atrium, although these services were outside the scope of the
contract.

Many of the necessary safeguards for federal construction projects were absent as a
result of awarding this work as modifications to the contract. First, the work was
given to TCMA non-competitively, which has some important implications. For the
work that was not within the scope of the base contract, there were potential
Competition in Contracting Act violations. Also, fair and reasonable prices were not
established through competition. Second, the potential for a conflict existed, since
TCMA could not serve as an independent check in its capacity as GSA’s ITC manager
on the work it did as construction coordinator. Third, the arrangement did not
provide contractual assurances of compliance with federal construction
requirements, including federal design standards, a fire and life safety program, and
labor laws, since these specifications and clauses were absent from the contract
modifications. Lastly, the modification language was typically vague, rarely defined a
specific procurement outcome and did not specify deliverables.


                                                                                 | 24

                                                                              GSA/OIG/A080106/P/W/R10004






An additional effect of this approach is that it interjected multiple levels of mark-up
on construction work. An example from the file for Modification 58B shows TCMA
contracting with a construction vendor. The vendor submitted a proposal to TCMA
that delineated costs by trade, plus a general conditions (overhead) factor of
(PROPRIETARY INFORMATION – REDACTED), plus a fee of (PROPRIETARY
INFORMATION – REDACTED). To this, TCMA added (PROPRIETARY INFORMATION –
REDACTED) G&A, plus (PROPRIETARY INFORMATION – REDACTED) profit. In
addition, TCMA billed GSA directly for construction coordination as well as
construction management, plus overhead, plus profit.

4.2.     IMPROPER ACCOUNTING

With respect to accounting treatment, GSA’s practice was to book the entire contract
cost, inclusive of actual construction and related capital costs, as a lump sum
administrative expense each month as billed. In accordance with generally accepted
accounting principles, where the outlay represents a tenant improvement allowance,
the cost should have been recorded as a reduction to rent revenue. Where the
outlay represents a non-leasehold capital improvement, the cost should have been
capitalized. Further, some of the modifications were worded vaguely which
increases the risk that some tasks might have been more accurately viewed as parts
of a single procurement, possibly valued above the dollar threshold that requires
advance congressional authorization.

See Appendix D for a list and summary of the contract modifications relative to
construction and construction management.




5. ADDITIONAL ADMINISTRATIVE POSITIONS
From June 2002 to March 2008, there were 13 separate modifications, valued in
excess of $4.5 million, to compensate TCMA for costs associated with up to 10
additional administrative positions. These modifications were not compensation for
contract changes that added new services or deliverables; these were direct
compensation for costs that are either not compensable under this firm, fixed-price
type contract26, or costs already compensated in prior modifications where new



26
  FAR 16.202-1: “A firm-fixed-price contract provides for a price that is not subject to any adjustment
on the basis of the contractor’s cost experience in performing the contract. This contract type places
upon the contractor maximum risk and full responsibility for all costs and resulting profit or loss. It
provides maximum incentive for the contractor to control costs and perform effectively and imposes a
minimum administrative burden upon the contracting parties…”



                                                                                                  | 25

                                                                GSA/OIG/A080106/P/W/R10004






contract requirements were actually added. In addition, these modifications
improperly added G&A costs plus profit, further inflating the amounts paid.

Per the justification documents, the modifications were intended to provide TCMA
compensation for additional costs of record-keeping, accounting, payroll, and
management information services. These costs are usually referred to as overhead
or indirect expenses and considered to be G&A, not direct cost. G&A is usually
expressed as a percentage of direct costs. TCMA’s original contract price proposal
included a G&A rate of (PROPRIETARY INFORMATION – REDACTED) applicable to a
direct labor base. Subsequently, a (PROPRIETARY INFORMATION – REDACTED) G&A
rate applied to any direct costs, including subcontracting costs, was routinely
proposed by TCMA and accepted by GSA, as seen throughout the contract
modification file history.

A change in the G&A rate itself would not be a compensable event. However, when
the Government changes a contract requirement, the contract provides for an
equitable adjustment. It is through the application of the G&A rate on the additional
compensable direct costs that a company is reimbursed for an increase to its G&A
costs, not through an increase to the rate itself.




6. ADDITIONAL SALES POSITIONS
TCMA proposed and GSA funded in excess of $10.6 million in contract modifications
to reimburse TCMA for 12 additional sales and sales management positions related
to conference center and event activities. As with the additional administrative
positions discussed above, modifications to the contract granting compensation for
costs associated with additional sales positions represent an overpayment27. Unlike
the administrative positions, these sales positions are not G&A cost components but
represent a direct function for which TCMA is already compensated through the
fixed-price payment under its base contract. Had GSA required TCMA to market an
additional venue or more events than originally contemplated, an equitable
adjustment to the contract price would be appropriate. But GSA has not added an
additional requirement. Under the terms of its contract, TCMA was already bound to
provide the sales staffing level necessary to fill the venue with events.




27
     See Note 2.




                                                                                | 26

                                                                       GSA/OIG/A080106/P/W/R10004






The justification documentation in the contract file, as it relates to the initial
modification to add additional sales positions, Modification SC82 (April 24, 2001),
seems to recognize this distinction, as it states in part that:

            The TCM base contract was executed on March 9, 1996. Since that time there
            have been numerous modifications to the Contract base services adding
            additional responsibilities and tasks for the TCM and providing for additional
            compensation. This modification does not add an additional service but
            provides for additional compensation {auditor’s emphasis} for extra resources
            provided by the TCM to perform the base Contract service of sales and sales
            management.

Absent an additional service requirement, there is no provision in this or any fixed-
price contract for additional compensation due to a contractor’s increased costs.
Performance and cost risk under a fixed-price arrangement rest with the
contractor28.

The only payment constraint imposed by Modification SC82 was the following:

            The Government will continue to provide this additional annual
            compensation so long as the annual sales of food, beverages, and room
            rentals is at least $10,000,000 for the preceding calendar year.

In effect, the modification redefined the compensation model and transferred
substantial cost risk from the vendor to the Government. Above $10 million in sales,
the Government now agreed to pay the cost of 12 additional sales positions in
addition to the fixed-price. There is no such arrangement contemplated or
permitted under the FAR, which discusses fixed-price and cost reimbursable type
contracts in mutually exclusive terms.

In soliciting for this contract, GSA evaluated the technical competency of its offerors.
TCMA cited and GSA accepted the experience of its TCMA’s employees as evidence
of its ability to translate the ITC requirement into a realistic staffing plan and price
proposal. The technical proposal submitted by TCMA detailed its anticipated sales
staffing plan, which included a Director of Conference Exhibition and Banquet Sales
with three sales representatives. Its proposal states that:

            The offeror’s experience at World Trade Center Boston shows that for a
            facility of this size to be a financial success, it will need to ultimately reach
            some (PROPRIETARY INFORMATION – REDACTED) customers and host



28
     See Note 26.




                                                                                        | 27

                                                                  GSA/OIG/A080106/P/W/R10004






        approximately (PROPRIETARY INFORMATION – REDACTED) meetings or
        events per week. This means that each salesperson will have to book
        (PROPRIETARY INFORMATION – REDACTED) events annually.

That totals (PROPRIETARY INFORMATION – REDACTED) events per year, which the
proposal clearly contemplates accomplishing with a sales staff of (PROPRIETARY
INFORMATION – REDACTED) ((PROPRIETARY INFORMATION – REDACTED) events
each). Whether or not that was a reasonable and realistic assumption is another
matter, but it is clearly the assumption stated by TCMA and accepted by GSA. There
were no additional requirements that would have added to this maximum figure of
(PROPRIETARY INFORMATION – REDACTED) events annually. By comparison, and as
seen below, the actual number of events to date has ranged between 600 and 1,200
per year with an average of 800.


                                Event Count

                                1195
              780
                    676   759
                                       690    835
                                                    761
                                                           704


            2000 2001
                      2002 2003
                                2004         2005   2006   2007


As the chart indicates, only one contract year reached the number of events
estimated in TCMA’s proposal, which presented a range of (PROPRIETARY
INFORMATION – REDACTED) events per year. TCMA may indeed have needed more
than the (PROPRIETARY INFORMATION – REDACTED) sales people proposed, but this
was not due to a change in the requirement. As such, its additional costs, $10.6
million, were not properly compensable.




7. RESTAURANT
Operation of the Aria restaurant presents an inherent conflict of interest with
TCMA’s primary role as trade center manager. The terms of agreement are
extraordinary in their transfer of costs and risk to the Government. Our review of
the file, and discussion with GSA management, indicated that the restaurant was
viewed as an essential element of the ITC retail tenant mix, and that GSA was willing
to accept less than favorable terms to avoid the negative impression of an extended
vacancy. In our view, this explanation did not justify the situation.


                                                                                | 28

                                                                GSA/OIG/A080106/P/W/R10004






By way of brief background, the TCMA base contract specified that a full service
dining operation was contemplated for the ITC and the trade center manager would
be responsible for securing tenants. To date, there have been three restaurants at
the same location. The first, Palomino Euro Bistro, was licensed for 10 years plus
three 5-year options to RUI One Corp on December 9, 1998. However, after 27
months, it gave termination notice. The contract was amended to shift certain
responsibilities and expenses to GSA through TCMA who managed the
transition/termination, earning a fee of (PROPRIETARY INFORMATION – REDACTED)
per month. On September 12, 2001, TCMA executed a new license for 10 years plus
two 5-year options with Jump Higher, Washington DC, LLC, to house a new
restaurant, Jordan's. In May 2003, Jump Higher gave termination notice, but agreed
to continue operations under amended terms that again shifted certain
responsibilities and expenses to GSA through TCMA, which again managed the
transition/termination.     Under these terms, TCMA earned (PROPRIETARY
INFORMATION – REDACTED) per month plus reimbursement for the cost of a
restaurant manager and bookkeeper. On June 3, 2004, TCMA executed a license
agreement with Aria Management, LLC for the current restaurant, Aria, again with a
10-year fixed term plus two 5-year options - an agreement that remains in effect to
date.

7.1.    CONFLICT OF INTEREST

Aria Management, LLC, is a TCMA affiliate. The entities share identical ownership
and common management. The dual roles given to TCMA, wherein it functions as
both GSA's ITC manager and ITC restaurant owner, create an inherent conflict of
interest. As GSA’s ITC manager, TCMA is responsible for evaluating the tenant mix
and space use to help achieve the goals of promoting international trade while also
striving to maximize GSA's return on investment. As a profit driven business,
Aria/TCMA would logically look to earn the maximum return with the least risk to
itself. The party that GSA has entrusted with protecting the government’s interest
has a financial incentive to transfer costs and risks normally borne by the tenant to
GSA. That is in fact what occurred.

7.2.    PREFERENTIAL TERMS

Aria/TCMA is granted extraordinarily preferential terms, terms not found in the
agreements covering the two previous restaurant operators. Aria is charged no fixed
rent, only a percentage of gross sales with no minimum revenue requirement.
Unlike the other retail tenants, Aria pays no utility costs and no common area
maintenance fee. Further, during the term of the Aria license, the restaurant space




                                                                                | 29


                                                                                    GSA/OIG/A080106/P/W/R10004






was renovated to provide new kitchen equipment, furniture and artwork as a non-
competitive modification to the TCMA contract29 at the Government’s expense.
Modification PC126 authorized $2,044,416, including (PROPRIETARY INFORMATION –
REDACTED) G&A and (PROPRIETARY INFORMATION – REDACTED) profit to TCMA.
Similar inappropriate, non-competitive procurement actions were a common
practice under this contract. Additional subsidies include reimbursement for the cost
of employing an accountant/bookkeeper, and reimbursement for all Aria marketing
expenses, which were covered as reimbursable costs under TCMA's contract. No
other tenant received such consideration.

One consequence of this arrangement is that GSA did not know how much rent
revenue it received from the tenant, Aria. As GSA’s trade center manager, TCMA
was charged with ensuring that GSA was receiving a fair market rent, and that the
utilization of space helped optimize its return on investment. However, under the
terms of the Aria license agreement, the restaurant revenue is pooled with the TCMA
catering revenue and remitted as a combined total under the catering remittance
schedule. TCMA did not separate restaurant revenue from other TCMA catering
revenue in arriving at the total “percentage rent” it owes GSA and GSA did not
require them to differentiate.




8. TCMA OCCUPANCY OF INTERNATIONAL TRADE CENTER
   SPACE
GSA’s lack of oversight and enforcement of contract terms permitted TCMA to
occupy, at no cost, substantially more ITC space than provided for under the
contract. GSA also permitted TCMA partners and subcontractors to occupy space
free of rent. GSA’s failure to enforce, in effect, changed the terms of the contract,
granting TCMA a valuable concession in exchange for nothing at all, an action not
permitted under a government contract. We estimated the value of unauthorized
occupancy at about $651,398 per year.

TCMA exceeded its occupancy limit of space authorized in the contract by about
15,170 rentable square feet (RSF) valued at approximately $651,39830 annually.
Projected over 10 years since contract award, this space could have potentially
yielded revenue valued at close to $6.5 million. The contract authorizes TCMA to



29
     The issue is discussed in depth under the Construction Management section of this report.

30
     Calculation based on the average rent rate for ITC office tenants during fiscal year 2008.




                                                                                                  | 30

                                                                     GSA/OIG/A080106/P/W/R10004






locate its staff within the ITC not to exceed about 3,000 RSF31 at no cost to the
contractor. Space measurements taken in accordance with the standards approved
by the American National Standards Institute, Inc., and Building Owners and
Managers Association International (ANSI/BOMA) showed that TCMA occupies
18,170 RSF.

There were no modifications or formal correspondence authorizing the contractor to
exceed the prescribed allotted space. Leasing strategies prescribed in the Leasing
Plan section of the contract establishes a goal to have the ITC space 100% leased
with the exception of TCMA’s allotted space. Although the RRB/ITC Director and ITC
Director were knowledgeable of and responsible for TCMA’s occupancy of ITC space,
no action has been taken to correct the issue. The following are two examples of
how TCMA exceeded its allowable space allotment. We found no formal license or
rental agreement in these arrangements to compensate GSA for use of this space.

     •	 TCMA had a joint venture with Washington Link, an event planning and 

        management company. TCMA’s partner in this arrangement specialized in

        event planning, convention activities, conference planning, corporate events, 

        fund-raising support services, and event facilities management, with a client 

        list of associations and corporations across the United States. The office 

        space used for their operations, 2,423 RSF, equates to a rental value of               

        $104,044 per year based on the average office rental space rate in the                  

        building. 


     •	 TCMA’s subcontractors for audio/visual and conference/event services were 

        housed, at the time of our review, in 2,122 and 758 RSF, respectively, in the 

        ITC. 


An additional consideration is liability insurance; without an executed lease, there is
no apparent requirement for the tenant to carry commercial general liability
insurance, as would be required of all other retail and commercial tenants housed in
the ITC. The insurance would protect the landlord, in this case GSA, from claims for
bodily injury or death, property damage or destruction.




31
  The base contract prescribed 2,000 occupiable square feet (OSF) whereby we applied a 1.5
rentable/usable factor. The follow-on contract increased the amount of space provided TCMA.




                                                                                      | 31

                                                                  GSA/OIG/A080106/P/W/R10004






9. CONTRACT OVERSIGHT
The fiscal operations of the ITC also lacked oversight. Contract provisions designed
to provide some insight into TCMA operations were either not enforced or absent.
Further, arbitrary accounting treatment of ITC expenses caused the Federal Office
Building component of the complex to absorb costs, thereby supplementing the
operations of the ITC. These issues are discussed in more detail below.

9.1.    AUDITS

A primary source missing from the oversight equation was the audited financial
statements for TCMA. The base contract called for an annual audit of the
contractor’s “books and records” at TCMA’s expense. A reasonable interpretation
would be that TCMA was to provide audited annual financial statements sufficient to
demonstrate compliance with relevant contract requirements. The requirement was
never enforced.

Instead, starting in fiscal year 2001 (FY01), the contract was modified to fund limited
scope audits, with “breadth and extent of the desired audit” to be defined by GSA.
The areas agreed upon were the following:

    1.	 Schedules of Conference Center Event Rates and Revenues and Monies
        remitted to the Government under Contract;
    2.	 Schedule of Parking Revenues and the Commissions Earned by TCMA;
    3.	 Schedule of Furniture and Support Equipment Used in Connection with the
        Contract; and
    4.	 Schedules of Individuals Employed and Compensated by TCMA and Aria.

For these audited schedules, which provide only limited assurances and no insight
into TCMA operational results, the contract value was increased by $785,900. In
return, GSA received appreciably less than what was already required under the base
contract. Further, it does not appear that GSA used these reports. For example, we
observed audit cover letters that frequently made reference to a management letter,
a vehicle for communicating internal control related matters. It is cited by the
external auditor as an integral part of the audit to be read in conjunction with the
report. GSA claimed not to have, nor to have been entitled to receive, these letters.
The letters cited recurring control deficiencies, unaddressed by TCMA. GSA should
have insisted not only that TCMA provide the management letters, a component of
the audit work for which GSA paid, but also that TCMA take the recommended
corrective actions, considering the high dollar value, and substantially cost-
reimbursable nature, of the contract.




                                                                                  | 32

                                                                  GSA/OIG/A080106/P/W/R10004






9.2.    PROGRAM PERFORMANCE MEASUREMENT

As it relates to the contract, GSA did not collect nor require the contractor to report
on matters relevant to program success. For example, GSA did not possess statistics
relative to room utilization rates for events, nature of events, or average room rental
rate. It did not require that TCMA differentiate its percentage rent, which includes
both catering revenue and restaurant revenue. It did not evaluate rent earned in
aggregate for its retail and office space. It had no established measure of overall
productivity. It did not utilize an accounting system to allocate contract outlays by
expense category. Finally, GSA neither measured nor compared results of operations
to permit informed management decisions. Much of this information should have
been provided by the contractor in the form of monthly deliverables.

9.3.    FUNDING

GSA considers the ITC self-sufficient from a funding perspective in that the ITC
operations should not be supplemented outside of the ITC budget. Its measure of
solvency, however, is skewed heavily in favor of the ITC. The ITC, as an
organizational unit (a budgetary/accounting entity), consists of two of the three
Ronald Reagan complex buildings: DC0515AF (the International Trade Center,
exclusive of 80,546 RSF of space occupied by Federal tenants) and DC0516AF (the
parking garage). The Reagan complex also includes DC0459AF (the Federal Office
Building - FOB). Nearly all of the complex expenses are booked against the FOB. In
FY07, for example, there was debt service of $46.8 million, depreciation of $30.9
million and operations and maintenance of $19.7 million. The ITC’s share of these
expenses is borne by the FOB, which operates at a net loss ($36.7 million loss in
FY07). Further, indirect costs, while “allocated” to the ITC buildings ($4.3 million in
FY07), are not counted against the ITC budget, meaning those costs are left to be
absorbed by the Federal Buildings Fund. The net result is that the ITC operations are
heavily subsidized by the Federal Buildings Fund.




OBSERVATIONS
The multiple procurement irregularities noted throughout this report attest to the
breakdown of vital management controls. In our interviews we questioned why
these conditions were allowed to evolve. Several of the major decisions affecting the
contract were not supported by a documented rationale or justification. According
to the contracting officers, TCMA had access to GSA management and the
contracting officers perceived this access as a coercive force. Additionally, a
contracting officer was for some time directly reporting to the director of the Ronald


                                                                                  | 33

                                                                  GSA/OIG/A080106/P/W/R10004






Reagan Building and International Trade Center, which meant that the contracting
officer was to approve actions generated or justified by his supervisor. According to
the Ronald Reagan Building and International Trade Center staff, there was a concern
that since this was a unique and highly visible property, operations should run
smoothly, and modifying the contract to incorporate the additional services
facilitated that.

On December 2, 2008, a new contract, with a value in excess of $220 million, was
awarded to the sole bidder, TCMA. According to the former Acting Regional
Administrator, after award and as sufficient information becomes available, GSA’s
National Capitol Region will conduct a more complete evaluation of the contract,
contractor performance, and overall business case in order to decide the future
direction of the Ronald Reagan Building and International Trade Center and whether
the options will be exercised.

As GSA evaluates the contract and contractor performance as well as other data to
determine the best course of action, it should consider whether the ITC program
mission, as envisioned in the original legislation for the facility, should be addressed
as well.




CONCLUSION
This audit was primarily a review of the single complex contract that provided the
International Trade Center management and nearly all related services through
March 2009. We identified multiple procurement irregularities and lack of oversight
throughout the report. The initial decisions to expand the scope of the contract to
include commercial facility management services, parking garage operations and
even some construction services, all under cost reimbursable compensation
arrangements, created a flawed platform with an intense administrative workload
that was inherited by each succeeding contracting officer. Although this contract
spanned more than a decade and involved multiple contracting officers and Ronald
Reagan Building and International Trade Center directors, the situation did not
improve.

In its approach to this contract, GSA ignored statutes, regulations, policies and sound
business practices. Subsequently, GSA awarded another contract for up to 10 years
to the incumbent without the benefit of competition and the assurance that the
contract costs are fair and reasonable. GSA’s oversight must improve.




                                                                                   | 34


                                                                   GSA/OIG/A080106/P/W/R10004






RECOMMENDATIONS
We recommend that the Acting Regional Administrator:

1)	 	Correct the type of contracting and oversight deficiencies identified in this report
     for current and future contract actions, including:

        a.	 Non-compliance with all applicable Government contract laws and
            regulations;

        b.	 	 Uncompensated use of space by TCMA;

        c.	 	 Lack of meaningful performance measures for the contractor;

        d.	 Improper accounting treatment for assets including allocation of
            expenses and capitalization;

        e.	 Lack of effective acquisition planning for any contract modifications and
            awards.

2)	 	Address the inherent conflict of interest that results from TCMA as both trade
     center manager and owner/manager of the Aria restaurant.

3)	 	Evaluate and perform analyses of the contract to determine the best course of
     action to ensure GSA is obtaining fair and reasonable pricing, as envisioned at
     the time of the award of the second contract, before awarding additional
     extensions/option years. Included in this evaluation would be a review of the
     International Trade Center mission as it affects the stewardship of the asset.

4)	 	Establish and support an independent line of authority for the contracting officer
     and ensure transparency in the management of the contact.




MANAGEMENT CONTROLS
Management controls over administering this contract need strengthening. We
tested controls over reporting, separation of duties, and management oversight.
Results showed that these specific controls could be improved to allow for enhanced
input to the acquisition planning process. Specifically, we evaluated various
management controls over commercial facility management, parking garage
management and operations, marketing, construction management, additional
administrative and sales positions, the restaurant, and TCMA occupancy of
International Trade Center space. The related control issues are discussed in the
context of our results and findings. The application of the audit recommendations
should address the issues within the management structure of the International
Trade Center program.



                                                                                    | 35

                                                                  GSA/OIG/A080106/P/W/R10004






MANAGEMENT COMMENTS
The National Capital Region’s (NCR) Acting Regional Administrator and the Public
Buildings Service (PBS) Regional Commissioner have provided comments to this
report and they are included in their entirety as Appendix A. In its response, NCR
primarily focused its discussion on programmatic issues and the new contract
awarded to the incumbent, TCMA, for a Trade Center Manager of the International
Trade Center (ITC) at the Ronald Reagan Building. They summarize several reasons
for modifying the previous TCMA contract. NCR’s discussion begins with the transfer
of this unique asset from the Pennsylvania Avenue Development Corporation to GSA
and the accompanying goal that its “statutory vision”, both physically and financially,
must be made to succeed. Based on that goal, NCR’s response repeatedly concludes
that all managements’ contract actions were sound business decisions. With regard
to those contract actions, NCR contends that its modifications to the previous TCMA
contract were appropriate in order to achieve quality level building services, create a
visual attraction, and maintain revenue and programmatic operations growth. NCR
also contends that the audit report’s findings have been addressed in the new
contract to TCMA.




AUDITOR RESPONSE
The comments provided by the NCR Acting Regional Administrator and PBS Regional
Commissioner warrant a response that is included as Appendix B. The Region’s
comments misdirect the reader when they focus on the facility’s performance
resulting from its business decisions rather than discuss the legality and cost to
taxpayers of those decisions. To illustrate, we identified a conflict of interest in the
dual roles of TCMA as both GSA’s ITC restaurant owner, Aria, and as GSA’s ITC
manager, responsible for negotiating the license with the restaurant. In its response,
NCR explained that GSA hired an outside attorney to negotiate the license in order to
mitigate any conflict. As support, NCR provided a letter between a law firm and
TCMA, not GSA. The letter contradicts the point that NCR was making since the
letter clearly identifies that the law firm represents TCMA and that no
attorney/client relationship exists with GSA. As another example, the comments cite
a “sole source justification” to explain the rationale for adding the commercial
facilities management services and parking garage operations to the contract. While
the comments note that the justification was attached to a specific modification in




                                                                                   | 36

                                                                     GSA/OIG/A080106/P/W/R10004






the contracting officer representative’s file, they fail to note that the justification did
not comport with FAR requirements and that it was not signed.

We did not evaluate the new contract or the performance of the facility as those
issues were outside the scope of this review. Instead, we identified and stressed
numerous and substantial procurement irregularities in the administration of the
previous TCMA contract. We also identified areas where improved information
would allow for contract performance measurement. The OIG positions stated in the
audit report remain unchanged.




                                                                                      | 37


                                   GSA/OIG/A080106/P/W/R10004




APPENDIX A
APPENDIX A – MANAGEMENT COMMENTS




                                                                | 38
GSA/OIG/A080106/P/W/R10004






                               | 39


GSA/OIG/A080106/P/W/R10004






                               | 40


GSA/OIG/A080106/P/W/R10004






                               | 41


GSA/OIG/A080106/P/W/R10004






                               | 42


GSA/OIG/A080106/P/W/R10004






                               | 43


GSA/OIG/A080106/P/W/R10004






                               | 44


GSA/OIG/A080106/P/W/R10004






                               | 45


GSA/OIG/A080106/P/W/R10004






                               | 46


GSA/OIG/A080106/P/W/R10004






                               | 47


GSA/OIG/A080106/P/W/R10004






                               | 48


GSA/OIG/A080106/P/W/R10004






                               | 49


GSA/OIG/A080106/P/W/R10004






                               | 50


GSA/OIG/A080106/P/W/R10004






                               | 51


GSA/OIG/A080106/P/W/R10004






                               | 52


GSA/OIG/A080106/P/W/R10004






                               | 53


GSA/OIG/A080106/P/W/R10004






                               | 54


GSA/OIG/A080106/P/W/R10004






                               | 55


GSA/OIG/A080106/P/W/R10004






                               | 56


GSA/OIG/A080106/P/W/R10004






                               | 57


GSA/OIG/A080106/P/W/R10004






                               | 58


GSA/OIG/A080106/P/W/R10004






                               | 59


GSA/OIG/A080106/P/W/R10004






                               | 60


GSA/OIG/A080106/P/W/R10004






                               | 61


                                                                 GSA/OIG/A080106/P/W/R10004




APPENDIX B
APPENDIX B – AUDITOR RESPONSE
In its response to the report, the National Capital Region (NCR) focused its discussion on programmatic
issues and the new contract awarded to TCMA. NCR emphasized that the “statutory vision”, both physically
and financially, for this unique asset must be made to succeed. Based on that goal, NCR’s response
repeatedly concludes that management’s contract actions were sound business decisions and that the
modifications to the previous TCMA contract were appropriate. NCR also contends that the audit report’s
findings have been addressed in the new contract to TCMA. We disagree with NCR’s comments. We have
included the following information to assist the reader in understanding why we do not agree with the
comments. However, since NCR did not address the violations of contracting regulations, procedures and
law in many cases, we did not repeat those findings here.

NCR’s General Comment: Contrary to the suggestion in the Audit Report that the new contract was
awarded to TCMA after an unsuccessful attempt to compete a new contract, the new contract was awarded
under full and open competition. (Appendix A, page 39)

OIG Response: In response to NCR’s answer to the sufficiency of competition regarding the new contract
award, NCR misrepresented the actual results of the Agency’s own Task Force and Competition Advocate.
Correspondence from the Task Force to the Former Acting Regional Administrator confirmed there existed a
concern surrounding the Agency’s decision to reject a request for historical information related to the Trade
Center’s business volume that may have resulted in a lack of full and open competition. The Task Force also
concluded that the question regarding the access to procurement sensitive information would best be
answered within the acquisition community and not by the Task Force itself. As such, it recommended and
forwarded the issue to the GSA Competition Advocate who, after review, concluded “the decisions rendered
by GSA effectively prevented full and open competition.”



RESPONSE TO DRAFT AUDIT REPORT RESULTS


            COMMERCIAL FACILITIES MANAGEMENT SERVICES



              i.	   NCR Comment: “CFM services were not excluded from the original contract for the
                    specific purpose of having them competed separately. Rather, CFM services were not
                    addressed at the time of the RFP …” (Appendix A, page 39)

                    OIG Response: In contrast to NCR’s response, we found the following statement within
                    the base contract Request for Proposal (RFP): “The maintenance, operations, and facility



                                                                                                        | 62

                                                    GSA/OIG/A080106/P/W/R10004






        management for the FTB [Federal Trade Building] will be contracted by GSA to a private
        Commercial Facilities Manager (CFM).” This was further clarified through specific
        questions and answers documented in an amendment to the RFP where GSA advised
        bidders that commercial facility management services would be procured
        independently, and competitively, under a separate future contract action.

 ii.	   NCR Comment: The addition of CFM services was appropriately made as a sole source
        selection and sound business decision to TCMA. (Appendix A, page 39/40)

        OIG Response: The addition of CFM services as a sole source action significantly funded
        the contract for an additional $74 million and is in contravention of the Competition in
        Contracting Act, 41 U.S.C. § 253, as well as FAR requirements. This action constituted a
        material change that greatly expanded the contract beyond its original scope. In
        addition, NCR’s referenced sole source justification was unsigned and not part of the
        official contract file. Moreover, even if the document were signed, which it is not, the
        justification does not meet FAR 6.3 requirements. Finally, if NCR believed that the sole
        source justification document was critical to its argument, it is unclear why NCR did not
        accurately portray the document as unsigned in its response.

    The OIG position stated in the audit report remains unchanged.



PARKING 
      




  i.    NCR Comment: “Parking management services were not excluded for the specific
        purpose of having them competed separately. They were not addressed at the time of
        the RFP…” (Appendix A, page 41)

        OIG Response: See OIG Response to CFM Comment i.

 ii.    NCR Comment: The addition of parking services was appropriately made as a sole
        source selection and sound business decision to TCMA. (Appendix A, page 42)

        OIG Response: See OIG Response to CFM Comment ii. Additional funding for parking
        totaled approximately $25 million.

 iii.   NCR Comment: “Audits of parking operations were conducted annually by an
        independent CPA firm.” (Appendix A, page 43)

        OIG Response: Our audit report accurately discusses the work performance by the CPA
        firm in the Section entitled “Contract Oversight”. The work was limited to reviews of
        schedules and provided only limited assurances, with no insight into TCMA operational



                                                                                            | 63

                                                       GSA/OIG/A080106/P/W/R10004






        results. Further, regional personnel claimed not to have been entitled to management
        letters that cited recurring control deficiencies.

 iv.	   NCR Comment: “The Audit Report likewise demonstrates a complete lack of
        understanding regarding the decision-making process in delaying payment of this tax
        and acknowledges that the scope of the audit did not include review of the reasons for
        delay.” (Appendix A, page 43)

        OIG Response: Within the scope of this audit, we did not explore the reasons why the
        original taxes remained unpaid while interest charges accrued, or whether the payment
        by GSA was proper and justified. Instead, the audit identifies that GSA ultimately lost
        nearly $10 million due to the absence of proper acquisition planning, a suitable contract
        structure with appropriate risk sharing, accounting for results of operations by GSA and
        TCMA failure to identify the potential liability in the first place.

    The OIG position stated in the audit report remains unchanged.



MARKETING EXPENSES



  i.	   NCR Comment: “We disagree with the statement that the contract established no
        measureable performance goal or cost constraint relative to marketing and promotion…
        Again, the key performance measurement is the programmatic success in creating a
        facility that provides visual testimony to the dignity, enterprise, vigor and stability of the
        American government.” (Appendix A, page 45)

        OIG Response: In contrast to NCR’s comment, the overall programmatic success cannot
        be measured by “visual testimony.” TCMA’s contract lacks cost constraints and
        meaningful performance measures relative to providing insight on the rate of return on
        any investment of marketing and promotion expenses. The effectiveness of marketing
        relative to these expenditures was never evaluated by GSA. Instead, the TCMA contract
        inappropriately shifts all cost and performance risk to the government. NCR provides a
        comparison of marketing expenses as a percentage of annual program revenue. A more
        accurate analysis might consider a comparison of marketing outlays to the revenue
        generated for a specific activity or area.

        GSA’s use of the awards and recognition chart to demonstrate its success is misleading.
        For at least one of these awards, GSA added more than $300,000 to the TCMA contract
        “to prepare for the Government’s submission of the Ronald Reagan Building and
        International Trade Center (RRB/ITC) in The Office Building of the Year (TOBY) award
        competition.”



                                                                                                 | 64

                                                      GSA/OIG/A080106/P/W/R10004




   The OIG position stated in the audit report remains unchanged.



CONSTRUCTION SERVICES



  i.	   NCR Comment: “TCMA was a preferred vendor to provide construction management
        services, ensuring these projects were coordinated around tenanted spaces and
        conference center events. For each project GSA required that at least three bids were
        received.” (Appendix A, page 46)

        OIG Response: There is no provision for vendor preference, as used by NCR, under FAR.
        GSA’s use of the TCMA contract to acquire construction services resulted in a series of
        inappropriate award actions. Terms and conditions required for federal construction
        contracts were absent. Deliverables were unspecified. Multiple levels of cost mark-ups
        and fees were permitted. Further, independent government cost estimates or other
        forms of price analysis were not generally documented in the contract file. We found
        only limited examples of multiple quotes secured by TCMA’s general construction
        subcontractor, and no evidence of full and open competition. The process, to the extent
        documented, does not establish a basis for determining price reasonableness.

   The OIG position stated in the audit report remains unchanged.




ADMINISTRATIVE POSITIONS



  i.	   NCR Comment: “Adding these positions was a sound business decision, completely
        justified by the unexpected volume of business due to its successful operation.”
        (Appendix A, page 46/47)

        OIG Response: There is no provision in this contract or any fixed-price contract for
        additional compensation due to a contractor’s increased costs. Under a firm-fixed-price
        type contract, actual costs whether higher or lower than anticipated have no effect on
        the price agreed to under the contract. Performance and cost risk under a fixed-price
        arrangement rest with the contractor.

        Specifically, FAR 16.202-1 states: “A firm-fixed-price contract provides for a price that is
        not subject to any adjustment on the basis of the contractor’s cost experience in
        performing the contract. This contract type places upon the contractor maximum risk



                                                                                               | 65

                                                     GSA/OIG/A080106/P/W/R10004




       and full responsibility for all costs and resulting profit or loss. It provides maximum
       incentive for the contractor to control costs and perform effectively and imposes a
       minimum administrative burden upon the contracting parties…”

  The OIG position stated in the audit report remains unchanged.



SALES AND MANAGEMENT POSITIONS



 i.	   NCR Comment: “This staff was unable to provide the necessary effort to keep up with
       the success of the conference center …” (Appendix A, page 47)

       OIG Response: The additional sales positions are a direct function for which TCMA is
       already compensated through the fixed price payment under its contract. Under the
       terms of the contract, TCMA was already bound to provide the sales staffing level
       necessary to fill the venue with events. In soliciting for this contract, the Government
       evaluated the technical competency of its offerors. TCMA cites and GSA accepted the
       experience of its members as evidence of ability to translate the ITC requirement into a
       realistic staffing plan and price proposal. The technical proposal submitted by TCMA
       detailed its anticipated sales staffing plan. Absent an additional service requirement,
       there is no provision in this or any fixed-price contract for additional compensation due
       to a contractor’s increased costs. Performance and cost risk under a fixed-price
       arrangement rest with the contractor.

       Specifically, FAR 16.202-1 states: “A firm-fixed-price contract provides for a price that is
       not subject to any adjustment on the basis of the contractor’s cost experience in
       performing the contract. This contract type places upon the contractor maximum risk
       and full responsibility for all costs and resulting profit or loss. It provides maximum
       incentive for the contractor to control costs and perform effectively and imposes a
       minimum administrative burden upon the contracting parties…”

  The OIG position stated in the audit report remains unchanged.



ARIA RESTAURANT



 i.	   NCR Comment: “GSA hired an outside real estate attorney to negotiate the license to
       mitigate any conflict of interest.” (Appendix A, page 49)




                                                                                              | 66
                                                       GSA/OIG/A080106/P/W/R10004






       OIG Response: NCR misrepresents the relationship between GSA and the attorney(s)
       used to negotiate this license. According to documentation provided by NCR, TCMA
       used its existing attorney(s) to assist in the negotiation of a license to itself (Aria), which
       would not mitigate the inherent conflict of interest or risk. While TCMA agreed to waive
       any privileges in order to expedite a GSA review, GSA did not have an attorney/client
       relationship with the law firm.

       Aria Management, LLC is a TCMA affiliate. The entities share identical ownership and
       common management. As GSA’s ITC manager, TCMA is responsible for evaluating the
       tenant mix and space use to help achieve the goals of promoting international trade
       while also striving to maximize GSA’s return on investment. As Aria’s owner, a profit
       driven business, TCMA/Aria would logically look to earn the maximum return with the
       least risk to itself. The party that GSA has entrusted with protecting the government’s
       interest has a financial incentive to transfer costs and risk normally borne by the tenant
       to GSA.

  The OIG position stated in the audit report remains unchanged.



TCMA’S SPACE OCCUPANCY



 i.	   NCR Comment: “As existing activity grew substantially and additional requirements
       were added, GSA evaluated the need and provided additional space. All TCMA space
       was utilized exclusively for the direct performance of this contract, essential for
       servicing the building and operation.” (Appendix A, page 50)

       OIG Response: NCR’s lack of oversight and enforcement of contract terms permitted
       TCMA to occupy substantially more space than allowed under the contract, and NCR
       also allowed TCMA partners and subcontractors to occupy space free of rent. There
       were no modifications or formal correspondence authorizing the contractor to exceed
       the prescribed allotted space with an estimated value of $651,398 annually. NCR has
       not initiated any effort prior to the audit to determine the extent to which TCMA
       expanded its space occupancy.

  The OIG position stated in the audit report remains unchanged.




                                                                                                 | 67


                                                  GSA/OIG/A080106/P/W/R10004






PROGRAM MANAGEMENT



 i.	   NCR Comment: “The ITC revenue cannot be used to pay the debt service.” (Appendix A,
       page 51)

       OIG Response: Assuming that the ITC revenue could not be used for debt service, and
       debt service was required to be paid out of a different funding source, GSA would be
       able to include the expenses for debt service in its calculations of the ITC’s net
       profitability. The audit report is thus correct in its assertion that GSA’s accounting
       treatment creates an inaccurate impression of the ITC’s financial success.

  The OIG position stated in the audit report remains unchanged.




                                                                                         | 68


                            GSA/OIG/A080106/P/W/R10004




APPENDIX C
APPENDIX C – ALERT REPORT




                                                         | 69
GSA/OIG/A080106/P/W/R10004






                               | 70


GSA/OIG/A080106/P/W/R10004






                               | 71


GSA/OIG/A080106/P/W/R10004






                               | 72


GSA/OIG/A080106/P/W/R10004






                               | 73


GSA/OIG/A080106/P/W/R10004






                               | 74


GSA/OIG/A080106/P/W/R10004






                               | 75


                                                                              GSA/OIG/A080106/P/W/R10004




APPENDIX D
APPENDIX D – CONSTRUCTION RELATED CONTRACT MODIFICATIONS

                               Effective                                                 32
Mod #          Mod Amt                                                           Scope
                                 Date
 SA25         NTE $143,000      11/1/97     Adds construction management service for the build-out of the ITC North Office
                                            Tower, Phase One. This phase covers build-out of common areas plus 60,000sf
                                            tenanted office space.         Compensation (PROPRIETARY INFORMATION –
                                            REDACTED) lump sum plus (PROPRIETARY INFORMATION – REDACTED)
                                            construction cost for above standard fit-out. ITC Director asserts that CM
                                            services fall within the scope of TCMA’s contract.
 SA29         NTE $155,000       2/1/98     Adds construction management of the build-out of the ITC North Office Tower,
                                            Phase Two. This phase covers build out of balance of tenanted office space,
                                            100,000sf. Compensation (PROPRIETARY INFORMATION – REDACTED) lump sum
                                            plus (PROPRIETARY INFORMATION – REDACTED) construction cost for above
                                            standard fit-out. Overall construction budget was (PROPRIETARY INFORMATION
                                            – REDACTED) covering both Phases.
 SA34         NTE $170,500        ?/97      Signed 6/98 to compensate TCMA for retail (food court) construction
                                            coordination services already rendered over past 12 months. TCMA claimed
                                            there had been an “agreement” to reimburse these expenses. ITC Director
                                            approved payment, claims that retail coordination services were not part of the
                                            contract.
 SA42         NTE $ 45,000       11/97      Signed retroactively on 9/98 for “hours expended and other direct costs” and to
                                            be provided “from November, 1997 through April, 1998.” TCMA is tasked “to
                                            make recommendations and work with the new architectural team to assure the
                                            ITC program and design integrity.”
 SC58          $1,700,000       9/15/99     Modification SC58 obligates funding for programming, design and
                                            implementation of the “America’s Showcase” retail space and for associated
                                            tenancy-related costs. No deliverable; modification simply locks in funding.
                                            Modification 58A, discussed next, indicates that these funds were intended for
                                            CM services as well as hard costs of tenant space build-out.
     58A           $0            7/5/01     Provides a partial scope of services with reference to Modification 58 for funding.
                                            Specifies amount NTE (PROPRIETARY INFORMATION – REDACTED) billed on a
                                            labor hour basis derived from actual salary times a multiplier of (PROPRIETARY
                                            INFORMATION – REDACTED) that includes overhead but no fee. Rates are as
                                            follows:
                                                 • Vice President @ (PROPRIETARY INFORMATION – REDACTED) /hr
                                                 • Construction Manager @ (PROPRIETARY INFORMATION – REDACTED)
                                                      /hr
                                                 • Support Staff @ (PROPRIETARY INFORMATION – REDACTED) /hr
                                            Specific Tasks include:
                                                 • Review license form and exhibits. Also authorizes TCMA to engage A/Es
                                                      on reimbursable basis.



32
     Exclusive of restaurant construction modficiations




                                                                                                                          | 76
                                                                 GSA/OIG/A080106/P/W/R10004






                     Effective                                                  32
Mod #   Mod Amt                                                         Scope
                       Date
                                     •     Review deals for Licensor (GSA/TCMA) work requirements.
                                     •     Oversee selected A/Es and coordinate construction services.
                                     •     Coordination and Construction Management of Licensee (tenant) work.
                                           Implies oversight of construction contracts to be awarded by GSA.
                                 Estimated budget for Licensee Work is (PROPRIETARY INFORMATION –
                                 REDACTED). Modification implies that construction coordination services were
                                 not a deliverable included under the fixed-price of the base contract, clause
                                 (C)(6)(b) cited on page 22.
 58B    $700,000     9/25/03     Funding increase for “continuing design, construction and construction
                                 management services to support the build-out of tenant spaces.” Memo to file
                                 explains that funds will also cover one full time CM plus one part time CM with
                                 rates based on “hourly rates taken from existing A/E and CM services contracts.”
                                 Scope of services simply points back to Modifications 58 and 58A. No additional
                                 details in this modification.
 58C    $1,250,000   9/24/04     Supplements funding to cover costs for “partial fiscal year 2004 and…some of the
                                 initial FY 2005 expenditures…” No specific project identified; funding was
                                 retroactive in part.
                                 Memo to file signed by Director states that:
                                       • Construction/Build-out – “costs…are based upon competitive pricing
                                           and the TCM will obtain and submit competitive pricing bids.”
                                       • CM and A/E services are “based upon Government established hourly
                                           rates.”
                                 Memo to file also discusses TCMA hiring the current CM, changing his status
                                 from subcontractor to employee of TCMA.                Memo cites current rate
                                 (PROPRIETARY INFORMATION – REDACTED) /hr plus (PROPRIETARY
                                 INFORMATION – REDACTED) G&A plus (PROPRIETARY INFORMATION –
                                 REDACTED) profit.
PC58D   $1,500,000   1/10/05     Additional funding. No specified deliverable.
PC58E   ($350,000)   6/21/05     Decrease – new priorities for FY2005
PC96    $1,100,000   9/19/02     Modification to convert Atrium to ballroom. Memo to file says that the funding
                                 and authority in this modification will “provide the Government…the ability to
                                 perform a design-build project…on a tight timeframe….” Actual scope of work
                                 and deliverables not specified in modification. File implies that TCMA solicited
                                 competing bids and ultimately awarded contract to (PROPRIETARY
                                 INFORMATION – REDACTED) valued at (PROPRIETARY INFORMATION –
                                 REDACTED) + A/E fees of (PROPRIETARY INFORMATION – REDACTED) + additional
                                 TCMA fees and profit totaling (PROPRIETARY INFORMATION – REDACTED). Email
                                 “approval” comes from COTR, who also agrees that GSA will cover any additional
                                 contingencies up to (PROPRIETARY INFORMATION – REDACTED), “not at the risk
                                 or expense of TCMA.”
PC96a    $18,582     9/22/03     Change order to Atrium conversion project. Replace defective sprinkler heads.
                                 Includes (PROPRIETARY INFORMATION – REDACTED) cost + (PROPRIETARY
                                 INFORMATION – REDACTED) (PROPRIETARY INFORMATION – REDACTED) fee +
                                 (PROPRIETARY INFORMATION – REDACTED) CM + (PROPRIETARY INFORMATION
                                 – REDACTED) G&A + (PROPRIETARY INFORMATION – REDACTED) Profit.
                                 Modification states that this work was not contemplated under original plan.
PC96b    $43,022     11/1/04     Additional funding for Atrium conversion. No details provided in file.
PC101    $20,000     9/20/02     Authorization for TCMA to contract for a sound system in Pavilion reception
                                 room. Memo states that this feature was “value engineered” out of original



                                                                                                            | 77


                                                                    GSA/OIG/A080106/P/W/R10004






                      Effective                                                32
Mod #   Mod Amt                                                        Scope
                        Date
                                  design for (PROPRIETARY INFORMATION – REDACTED). Significant estimated
                                  cost savings is attributed to GSA direction to “pursue the marketplace instead of
                                  summarily going to the in-house audio visual contractor”. Outcome not
                                  documented.
101a     $400,000     9/27/06     “Supplemental” funding for sound system, at twenty times original estimate.
                                  Outcome not documented.
PC139    $500,000     12/?/05     Additional funding for retail and office construction, CM, and A/E services.
                                  Vague reference to Modification 58E. No specified deliverable.
139a     $800,000     9/27/06     Additional funding, as above. No specified deliverable.
C167    $1,800,000    9/11/07     Additional funding, as above. No specified deliverable.
C193     $21,348      4/22/08     This is the first of the construction modifications that fell within the audit time
                                  frame. There is a marked difference in modification structure, scope and
                                  analysis. This Modification 193 is for A/E services covering renovation of Suite
                                  330. Three proposals are documented and compared. An IGE was prepared. A
                                  contracting officer’s determination of price reasonableness is documented.
                                  Analysis of A/E costs, a component of nearly all the preceding work, was not
                                  present in the prior modifications. Price analysis notwithstanding, there is no
                                  provision for obtaining A/E services through TCMA. This approach does not
                                  satisfy competitive procedures for A/E services as defined by FAR 36.6, and GSA
                                  incurs an unnecessary TCMA mark-up of (PROPRIETARY INFORMATION –
                                  REDACTED) G&A plus (PROPRIETARY INFORMATION – REDACTED) profit.
C195     $22,326      4/29/08     Create an outdoor deli area for ARIA restaurant. Work includes 8 new electrical
                                  outlets and new drapery and track. As above, includes CO determination of price
                                  reasonableness, contains three bids, and references and an IGE. Same criticism
                                  as C193.
C196     $23,592       5/9/08     Renovation of a current tenant’s space (PROPRIETARY INFORMATION –
                                  REDACTED). As with C193 and C195, modification contains a discrete scope,
                                  multiple bids, and an IGE. View as TI for a succeeding lease.
TOTAL   $10,062,371




                                                                                                                | 78


                                             GSA/OIG/A080106/P/W/R10004




APPENDIX E
APPENDIX E – REPORT DISTRIBUTION


                             Acting Regional Administrator, National Capital Region (WA)
 


                                    Public Buildings Service Regional Commissioner (WP)
 


                                                 Internal Control and Audit Division (BEI)
 


                                             Assistant Inspector General for Auditing (JA)
 


                                   Director, Audit Planning, Policy, and Operations (JAO)
 


                                         Director, Administrative and Data Systems (JAS)
 


                                                    Counsel to the Inspector General (JC)
 


                                        Assistant Inspector General for Investigations (JI)
 


                                                            Office of Inspector General (J)
 





                                                                                       | 79


